     Department of Homeland Security

     ��������������������������



Independent Review of U.S. Immigration and Customs 

    Enforcement’s Reporting of FY 2013 Detailed 

             Accounting Submission 





OIG-14-37                              February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      FEB 13 2014 
 
MEMORANDUM FOR:	             Radha Sekar 
                             Acting Executive Associate Director 
                             Management and Administration 
                             U.S. Immigration and Customs Enforcement 
 
FROM:	                       Mark Bell 
                             Acting Assistant Inspector General for Audits 
 
SUBJECT:	                    Independent Review of U.S. Immigration and Customs 
                             Enforcement’s Reporting of FY 2013 Detailed Accounting 
                             Submission 
   
Attached for your information is our final report, Independent Review of U.S. 
Immigration and Customs Enforcement’s Reporting of FY 2013 Detailed Accounting 
Submission. U.S. Immigration and Customs Enforcement’s management prepared the 
Detailed Accounting Submission and related disclosures to comply with the 
requirements of the Office of National Drug Control Policy Circular, Accounting of Drug 
Control Funding and Performance Summary, dated January 18, 2013.    
 
We contracted with the independent public accounting firm KPMG LLP to perform the 
review. KPMG LLP is responsible for the attached independent accountants’ report, 
dated February 04, 2014, and the conclusions expressed in it. We do not express an 
opinion on the Detailed Accounting Submission and related disclosures. This report 
contains no recommendation. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination.    
         
Please call me with any questions, or your staff may contact Sandra John, Acting Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100.   
 
Attachment                                  
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Detailed Accounting Submission of the U.S. Department of
Homeland Security’s (DHS) Immigration and Customs Enforcement (ICE) for the year ended
September 30, 2013. ICE’s management is responsible for the Detailed Accounting Submission.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Detailed Accounting
Submission. Accordingly, we do not express such an opinion.

Management of ICE prepared the Detailed Accounting Submission to comply with the requirements of the
Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control and Performance
Summary, dated January 18, 2013 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that the Detailed Accounting
Submission for the year ended September 30, 2013, referred to above, is not fairly stated, in all material
respects, in conformity with the criteria set forth in the Circular.

This report is intended solely for the information and use of the management of DHS and ICE, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




February 4, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                        q[{tce of the ChiefFinancia/ Officer

                                                                        U.S. Department of llomeland Securit)'
                                                                        500 12th Street, SW
                                                                        Washington. D.C. 20536


                                                                        U.S. Immigration
                                                                        and Custom s
                                                                        Enforcement
February 4, 2014

Ms. Anne L. Richards
Assistant Inspector General for Audit
U.S. Department of Homeland Security
Office of the Inspector General
1120 Vermont A venue NW, 10111 Floor
Washington, DC 20005

Dear Ms. Richards,

In accordance with the Office of the National Drug Control Policy circular, Drug Control Accounting,
dated January 18, 20 13, enclosed is Immigration and Customs Enforcement's report of FY 2013 drug
obligations, drug control methodology and asse1tions.

If you require further assistance on this information, please contact Jamie Sturgis at (202) 732-6188.

                                          Sincerely,




                                         ~(LlJ/l-<nh ~t/i
                                         ~~.9-.Jina Jones
                                           Deputy Director, Office of Budget and Program Performance
                                          U.S. Immigration and Customs Enforcement
                                                        -1-


                            U.S. Department of Homeland Security
                          U.S.Immigration and Customs Enforcement
             Detailed Accounting Submission of Drug Control Funds during FY 2013

A.	 Table of Prior Year Drug Control Obligations
   Drug Resources by Budget Decision Unit and Function:

                                                                                FY 2013 Final
                                                                                 (In Millions)
                  Drug Resource by Function
                          Domestic Investigations                                      $449.515
                          International Affairs                                          $8.570
                          Intelligence: Domestic                                        $16.355
                          Intelligence: International                                    $0.222
                  Total                                                               $474.662


                  Drug Resources by Decision Unit
             Salaries and Expenses – Immigration Enforcement
             Total                                                                    $474.662


           High Intensity Drug Trafficking Area (HIDTA) Transfer                         $1.207

   Disclosure No. 1: Drug Methodology

   U.S. Immigration and Customs Enforcement (ICE) is a multi-mission bureau, and obligations are
   reported pursuant to an approved drug methodology. Separate calculations are made for the
   three ICE programs which undertake drug-related investigative activity: Domestic Investigations,
   International Affairs, and Intelligence.

   Domestic Investigations

   The methodology for Domestic Investigations is based on investigative case hours recorded in
   ICE’s automated Case Management System. ICE officers record the type of investigative work
   they perform in this system which interfaces with Treasury Enforcement Communications System
   (TECS), a system used to identify and report case hours coded to specific investigative
   categories. Following the close of the fiscal year, ICE uses TECS reports to identify and report
   the total investigative case hours that are coded as general narcotics cases and money-laundering
   narcotics cases. A second TECS report shows investigative case hours logged. A percentage is
   derived by dividing the number of investigative case hours linked to drug-control activities by
   the total number of investigative case hours. This percentage may fluctuate from year to year.
   For FY 2013, the actual percentage for Domestic Investigations was 28.17%. To calculate a
   dollar amount of obligations, this percentage was applied to actual obligations incurred by
   Domestic Investigations, excluding reimbursable authority. ICE uses the Federal Financial
   Management System (FFMS) to identify the obligations incurred.
                                                -2-



International Affairs

•	 The methodology for International Affairs is based on investigative case hours recorded in
   ICE’s automated Case Management System. ICE officers record the type of work they
   perform in this system, which interfaces with the TECS system. Following the close of the
   fiscal year, a TECS report is run showing investigative case hours that are coded as general
   narcotics cases and money-laundering narcotics cases. A second report is run showing all
   investigative case hours logged. A percentage is derived by dividing the number of
   investigative case hours linked to drug-control activities by the total number of investigative
   case hours. For International Affairs, the actual percentage of hours that were counter-
   narcotics related was 8.11% in FY 2013. To calculate a dollar amount of obligations, this
   percentage was applied to actual obligations incurred by International Affairs, excluding
   reimbursable authority. The FFMS is the system used to generate the actual obligations
   incurred.

Intelligence

•	 The methodology for Intelligence is based on intelligence case hours recorded in ICE’s
   automated Case Management System. ICE intelligence officers record the type of work they
   perform in this system, which interfaces with the TECS system. Following the close of the
   fiscal year, a report in the TECS is run showing investigative case hours that are coded as
   general narcotics cases and money-laundering narcotics cases. A second report is run
   showing all investigative case hours logged. A percentage is derived by dividing the number
   of investigative case hours linked to drug-control activities by the total number of
   investigative case hours logged for Intelligence. For FY 2013, 24.68% of the total case hours
   for Intelligence were in support of drug-control activities. To calculate a dollar amount of
   drug-control obligations, this percentage was applied to actual obligations incurred by
   Intelligence, excluding reimbursable authority. The FFMS is the system used to generate the
   actual obligations incurred.

   ICE officers provide intelligence services for Domestic Investigations and International
   Affairs to support criminal investigations aimed at disrupting and dismantling criminal
   organizations involved in transnational drug trade and associated money laundering crimes.
   Intelligence case hours recorded in TECS captures both domestic and international drug-
   related activity. ICE Intelligence calculates the total percentage of case hours that support
   Domestic and International drug enforcement activity by adding the end of the year total
   number of Intel Domestic and Intel Office of International Affairs (OIA) drug-controlled
   investigative hours in TECS and dividing these totals by the total number of Domestic drug-
   controlled investigative hours and OIA drug-controlled investigative hours. The resulting
   percentage is used to determine the amount of work that Intelligence does for international
   activities (1.34%) and domestic activities (98.66%). The respective percentages are applied
   to the total Intelligence drug- related obligations as determined above to identify the relative
   international and domestic obligations expended by Intelligence for drug-control activities.

Disclosure No. 2: Methodology Modifications
                                                -3-


In FY 2013, ICE revised the method for determining Intelligence obligations that are domestic
and international. The previous method did not require agents to categorically record
Intelligence case hours related to drug enforcement investigations in the TECS system. This
method limited the program’s ability to provide transparency relating to Domestic and
International Intelligence activity. As a result, there was not sufficient data to develop
percentages that support Domestic and International Intelligence activity, respectively.

In FY 2013, ICE Intelligence revised the process to capture Domestic and International drug-
controlled activities in the TECS system. Intelligence Research Specialists’ case hours in
support of drug-controlled activities (the hours spent on Homeland Security Intelligence Reports
and Intelligence Information Reports) are now being captured in the data and are used to
determine the total number percentage of case hours by the Intelligence program area. ICE uses
this methodology to identify Intelligence obligations in support of drug controlled activities as
domestic or OIA, by using the percentage of domestic hours versus OIA hours worked per TECS
and applying these percentages to the total of all drug related Intelligence obligations. ICE
intelligence supports all of Homeland Security Investigations (HSI). Applying the percentages to
the overall Intelligence effort is the best methodology to estimate Intelligence support to both the
Domestic and International components of HSI. ICE has obtained ONDCP approval of the
change to the methodology.

Disclosure No. 3: Material Weaknesses or Other Findings

In the Fiscal Year 2013 financial statement audit, ICE contributed to material weaknesses at the
Department of Homeland Security consolidated financial statement level in the areas of financial
reporting, budgetary accounting, and information technology.

ICE recognizes weaknesses in the obligations management process with timely recordings in the
general ledger of obligations and expenses transactions, lack of IT systems controls to ensure
expenditures are within budgetary limits and ensuring that inactive contracts with outstanding
funds are de-obligated appropriately. ICE must improve the financial reporting processes to
ensure that sufficient reviews and validation of data is occurring prior to recording.
Additionally, ICE must develop additional policies and procedures to ensure that budgetary
subsidiary accounts are reconciled to the general ledger and adjustments are recorded timely.
Moreover, ICE will enhance its supervisory review of journal vouchers, account reconciliations,
and analysis, which affect adjustments to the financial statements. ICE will complete remediation
initiated last year and conduct routine verification and validation to ensure improvements are
being sustained.

The contributions to material weaknesses identified above did not impair ICE's ability to report
complete and accurate obligation data in the Table of Prior Year Drug Control Obligations.

Disclosure No. 4: Reprogrammings or Transfers

In FY 2013, the Office of International Affairs total base budget was reduced by $3 million and
the Office of Intelligence total base budget was reduced by $3.4 million due to sequestration.
                                                  -4-


   This reduction in funds due to sequestration was not considered a reprogramming requiring
   ONDCP approval.

   Disclosure No. 5: Other Disclosures

   There are no other disclosures which ICE feels are necessary to clarify any issues regarding the
   data reported.

B. Assertions

   Assertion No. 1: Obligations by Budget Decision Unit

   Not Applicable - As a multi-mission agency, ICE is exempt from reporting under this section as
   noted in the Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug
   Control Funding and Performance Summary.

   Assertion No. 2: Drug Methodology

   The methodology used to calculate obligations of prior year budgetary resources by budget
   decision unit and function is reasonable and accurate in regard to the workload data employed
   and the estimation methods used. The workload data is derived from the TECS system discussed
   in the methodology section above and is based on work performed between October 1, 2012 and
   September 30, 2013. There are no other estimation methods used. The financial system used to
   calculate the drug-related budget obligations is the FFMS which is capable of yielding data that
   fairly presents, in all material respects, aggregate obligations.

   ICE revised the methodology used to determine overseas and domestic intelligence drug
   obligations to maintain conformance to ONDCP circular requirements. ICE did obtain advance
   ONDCP approval of the revised methodology.

   Assertion No. 3: Application of Drug Methodology

   The methodology disclosed in section A, Disclosure No. 1 was the actual methodology used to
   generate the Table of Prior Year Drug Control Obligations.

   Assertion No. 4: Reprogrammings or Transfers

   In FY 2013, the data presented are associated with obligations against a financial plan that was
   sent to and approved by ONDCP. There were no reprogrammings or transfers of drug-related
   resources in excess of $1 million that required ONDCP approval.

   Assertion No. 5: Fund Control Notices

   No Fund Control Notice was issued as defined by the ONDCP Director under 21 U.S.C.section
   1703(f) and Section 8 of the ONDCP Circular, Budget Execution, to ICE in FY 2013.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS Component Liaison
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-37
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
